                                                              Issue Date
                                                                       November 15, 2007
                                                              Audit Report Number
                                                                           2008-AT-1002




TO:        Jose R. Rivera, Director, Community Planning and Development, San Juan Field
              Office, 4ND



FROM:      James D. McKay, Regional Inspector General for Audit, 4AGA

SUBJECT: The Municipality of Canovanas, PR, Needs to Improve Administration of Its
           Community Development Block Grant Program

                                 HIGHLIGHTS

 What We Audited and Why

            We audited the Municipality of Canovanas’ (Municipality) Community
            Development Block Grant (Block Grant) program. We selected the Municipality
            for review as part of our strategic plan. The objective of the audit was to
            determine whether the Municipality complied with U.S. Department of Housing
            and Urban Development (HUD) regulations, procedures, and instructions related
            to the administration of the Block Grant program.

 What We Found

            The Municipality’s financial management system did not fully comply with
            applicable HUD requirements. The system did not support the allowability of
            more than $885,000 in program disbursements, could not account for more than
            $501,000 in Block Grant receipts, allowed the use of more than $23,000 for
            ineligible program expenditures, and did not disburse Block Grant program funds
            in a timely manner.




  Table of Contents
           The Municipality’s management controls over its housing rehabilitation activities
           were inadequate. It improperly used Block Grant funds for new housing
           construction, and lacked adequate documentation to support program
           accomplishments. Therefore, the related program expenditures of more than
           $36,000 are ineligible, and more than $324,000 are considered unsupported
           pending an eligibility determination by HUD.

           The Municipality awarded six contracts totaling more than $1 million without
           following HUD procurement requirements. As a result, it cannot ensure that
           quality goods and services were obtained at the most advantageous terms. In
           addition, the Municipality did not support the reasonableness of more than
           $109,000 in Block Grant disbursements and paid more than $70,000 for excessive
           expenditures.

What We Recommend

           We recommend that the director of the San Juan Office of Community Planning
           and Development require the Municipality to repay more than $59,000 in
           ineligible expenditures and $70,374 in excessive costs. The director should also
           require the Municipality to provide all supporting documentation showing the
           appropriateness and eligibility of more than $1.82 million in Block Grant
           disbursements. We also recommend that the director require the Municipality to
           develop and implement an internal control plan to ensure that the Block Grant
           program has (1) a financial management system that complies with HUD
           requirements, (2) controls and procedures which ensure that the housing
           rehabilitation activities meet the program objectives, and (3) procurement
           procedures which ensure that goods and services are obtained at the most
           advantageous terms and in a manner providing full and open competition. In
           addition, we recommend that the director require the Municipality to ensure that
           Block Grant expenditures are properly accounted for, reconciled with HUD’s
           disbursement system, and in compliance with HUD requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided a copy of the draft report to Municipality officials on October 4,
           2007, for their comments. We discussed the findings with the Municipality during
           the audit and at the exit conference on October 11, 2007. The Municipality
           provided its written comments to our draft report on October 19, 2007, and
           generally disagreed with the findings.

           The complete text of the Municipality’s response, along with our evaluation of
           that response, can be found in appendix B of this report. Attachments to the
           Municipality’s comments were not included in the report, but are available for
           review upon request.

                                            2
Table of Contents
                             TABLE OF CONTENTS

Background and Objectives                                                            4

Results of Audit
        Finding 1: The Municipality’s Financial Management System Did Not Fully      5
                   Comply with HUD Requirements
        Finding 2: Management Controls over the Housing Rehabilitation Activities   10
                   Were Inadequate
        Finding 3: The Municipality Did Not Comply with Procurement Requirements    13

Scope and Methodology                                                               16

Internal Controls                                                                   18

Follow-up on Prior Audits                                                           19

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use              20
   B.   Auditee Comments and OIG’s Evaluation                                       21
   C.   Criteria                                                                    37
   D.   Schedule of Procurement Deficiencies                                        38




                                              3
                     BACKGROUND AND OBJECTIVES


The Municipality of Canovanas (Municipality) is an entitlement recipient administering more
than $6.1 million in Community Development Block Grant (Block Grant) funds approved by the
U.S. Department of Housing and Urban Development (HUD) during the past four years. HUD’s
Integrated Disbursement and Information System reflected Block Grant expenditures exceeding
$3.2 million during fiscal years 2005 and 2006 for the following activities:

                  Block Grant activity             Fiscal year 2005 Fiscal year 2006
          Public facilities and improvements               $ 531,908        $ 453,909
          Planning and administration                        331,442          510,984
          Section 108 loan repayment                         625,401          110,421
          Public services                                     98,736          263,477
          Housing rehabilitation                             202,661          168,848
          Total                                          $1,790,148       $1,507,639


The Municipality’s External Resources Office was responsible for administering the Block Grant
program. Its books and records for the Block Grant program are maintained at 25 Palmer Street,
Canovanas, Puerto Rico.

We audited the Municipality’s Block Grant program as part of the HUD Office of the Inspector
General’s (OIG) strategic plan. The Municipality was selected for review based on a risk
assessment.

The objective of the audit was to determine whether the Municipality complied with HUD
regulations, procedures, and instructions related to the administration of the Block Grant
program.




   Table of Contents


                                               4
                                     RESULTS OF AUDIT

Finding 1: The Municipality’s Financial Management System Did Not
           Fully Comply with HUD Requirements
The Municipality’s financial management system did not support the allowability of more than
$885,000 in program disbursements, could not account for more than $501,000 in Block Grant
receipts, allowed the use of more than $23,000 for ineligible program expenditures, and did not
disburse Block Grant program funds in a timely manner. The noncompliance occurred because
the Municipality did not develop and implement policies and procedures to ensure compliance
with financial requirements of HUD programs. Consequently, the Municipality’s internal
controls were not sufficient to safeguard assets or ensure their use for authorized purposes and in
accordance with HUD requirements.


    Unsupported Program
    Disbursements

                 HUD requires the Municipality to maintain sufficient records that properly
                 support charges made to the Block Grant program. However, the Municipality
                 did not provide adequate documentation supporting the reasonability,
                 allowability, and allocability of more than $885,000 charged to the Block Grant
                 program associated with its street resurfacing activities. 1

                 Between August 2005 and November 2006, the Municipality disbursed $885,617
                 from its Block Grant account for street resurfacing. However, it did not maintain
                 cost estimates or work specifications detailing the scope of the work to be
                 performed. The supporting documentation maintained by the Municipality did
                 not clearly identify the scope of the street resurfacing work, which would have
                 permitted assessing the actual work done and amount of asphalt needed. As a
                 result, it lacks assurance of the reasonableness, allowability, and allocability of
                 $885,617 it charged to the Block Grant program.

    Inaccurate Accounting Records


                 HUD requires recipients of Block Grant funds to maintain financial records that are
                 accurate and current and that adequately identify the source and application of funds
                 provided for assisted activities. The Municipality’s accounting records were not
                 accurate, current, or complete.

                 The Municipality’s accounting records did not reflect complete and accurate
                 financial information on program activities. For example, its accounting records

1
 Total disbursements of $979,547 were adjusted to consider $23,556 ineligible in recommendation 1C and $70,374
excessive in recommendation 3B.

                                                      5
    Table of Contents
            did not include Block Grant fund balance accounts and did not account for capital
            assets acquired or constructed with HUD funds. The accounting records also
            contained several instances of incorrect ending balances, adjustments without
            proper journal entries, and transactions not recorded.

            In addition, the expenditures shown in the Municipality’s general ledger for the
            fiscal years ended June 30, 2005, and 2006 did not agree with amounts reflected
            in HUD’s Integrated Disbursement and Information System.

                                   Fiscal year ended June 30, 2006
                      Activity           General ledger    IDIS*             Difference
            Administration and planning        $349,856 $510,984                 <$161,128>
            Public facilities and              $360,781    $453,909               <$93,128>
            improvements
            Public services                    $173,549    $263,477               <$89,928>
            Housing rehabilitation             $209,033    $168,848                 $40,185
            Section 108 Loan Guarantee         $110,376    $110,421                  <$45>
            Repayment
                                   Fiscal year ended June 30, 2005
            Section 108 Loan Guarantee         $654,339    $625,401                 $28,938
            Repayment
            Public facilities and              $665,007    $531,908                $133,099
            improvements
            Administration and planning        $244,433 $331,441                  <$87,008>
            Housing rehabilitation             $132,367    $202,661               <$70,294>
            Public services                     $98,293     $98,736                 <$443>

            *Integrated Disbursement and Information System

            The Municipality could not explain the discrepancies between the accounting
            records and could not account for $501,974 drawn from HUD for various Block
            Grant program activities.

Ineligible Program
Disbursements


            In June 2007 we performed site inspections of various street resurfacing projects
            funded with Block Grant funds. The Municipality improperly paid more than
            $23,000 in Block Grant funds for resurfacing work at private properties. During
            our visit, Municipality inspectors showed us at least 40 private properties that
            were paved with HUD funds.




Table of Contents


                                             6
                The above pictures show paved driveways. A municipality official indicated that these
                properties were resurfaced as instructed by the public works director and/or the mayor.

           A Municipality official informed us that the private properties were resurfaced as
           instructed by the mayor and/or the public works department director, and that the
           resurfacing was paid for with local funds. However, the Municipality did not
           provide us with evidence to support this claim. As a result, Block Grant funds
           totaling $23,556 were improperly used for costs not related to the program goals
           and objectives.


High Block Grant Fund
Balance


           Contrary to HUD requirements, the Municipality did not disburse Block Grant
           program funds in a timely manner and consistently maintained a high cash
           balance in its bank account. The Municipality’s June 2007 bank statement
           reflected a cash balance of more than $289,000, and the Municipality maintained
           a monthly average balance of $329,469 during the 12-month period ending June
           2007.




  Table of Contents

                                                7
                                                                Block Grant Cash Balance


                   $600,000




                   $500,000




                   $400,000




                   $300,000




                   $200,000




                   $100,000




                        $0
                              07/06   08/06   09/06   10/06   11/06   12/06   01/07    02/07   03/07   04/07   05/07   06/07


                                                                      Ending Balance




             The federal programs office director could not explain the reason for maintaining
             high cash balances in its Block Grant bank account. This condition was reported
             in the 2006 independent public accountant report as a recurrent and unresolved
             finding; however, the deficiency continues to exist.


Conclusion


             The Municipality did not maintain a financial management system that adequately
             identified the source and application of Block Grant funds, that permitted the
             disbursement of funds in a timely manner, and that permitted only charges for
             allocable and allowable costs. The Municipality’s Block Grant program
             accounting records were incomplete since they did not reflect the complete and
             full history of all financial transactions. The noncompliance occurred because the
             Municipality did not develop and implement policies and procedures to ensure
             compliance with financial requirements of HUD programs. As a result, the
             Municipality lacks assurance that funds were adequately accounted for,
             safeguarded, and used for authorized purposes and in accordance with HUD
             requirements.




 Table of Contents

                                                                 8
    Recommendations


                 We recommend that the Director of the San Juan Office of Community Planning
                 and Development

                 1A.     Require the Municipality to submit all supporting documentation showing
                         the eligibility and propriety of $885,617 in street resurfacing costs or
                         reimburse the Block Grant program from nonfederal funds. 2

                 1B.     Require the Municipality to submit all supporting documentation showing
                         the eligibility and propriety of $501,974 drawn from HUD or reimburse
                         the Block Grant program from nonfederal funds.

                 1C.     Require the Municipality to reimburse the Block Grant program from
                         nonfederal funds $23,556 paid for ineligible resurfacing work at private
                         properties.

                 1D.     Require the Municipality to develop and implement a financial
                         management system that permit the tracing of funds to a level which
                         ensures that such funds have not been used in violation of the restrictions
                         and prohibitions of applicable statutes, and that permit the disbursement of
                         funds in a timely manner.

                 1E.     Require the Municipality to ensure that grant expenditures from July 2004
                         through June 2007 are properly accounted for, reconciled with HUD’s
                         Integrated Disbursement and Information System, and in compliance with
                         HUD requirements.

                 1F.     Increase monitoring of the Municipality’s performance over the
                         administration of its Block Grant program. If the Municipality fails to
                         improve and fulfill its administrative responsibilities, consider imposing
                         sanctions in accordance with 24 CFR [Code of Federal Regulations]
                         570.910.




2
 Total disbursements of $979,547 were adjusted to consider $23,556 ineligible in recommendation 1C and $70,374
excessive in recommendation 3B.

                                                      9
Table of Contents
Finding 2: Management Controls over the Housing Rehabilitation
           Activities Were Inadequate
The Municipality improperly used Block Grant funds for new housing construction and lacked
adequate documentation to support program accomplishments. These deficiencies occurred
because the Municipality lacked effective management and controls over its housing
rehabilitation activities. As a result, it can not ensure that program objectives were met.
Therefore, program expenditures of more than $36,000 are ineligible, and more than $324,000 is
considered unsupported pending an eligibility determination by HUD.



 Ineligible New Housing
 Construction

              The Block Grant program allows disbursements to finance the rehabilitation cost
              of existing residential property. However, the cost associated with new housing
              construction and the creation of a secondary housing unit attached to a primary
              unit is not an allowable expense under the Block Grant program.

              The Municipality approved more than $36,000 in Block Grant funds for new
              housing construction in violation of HUD requirements. It approved Block Grant
              assistance to build or complete the construction of 12 new dwelling units.




                        Block Grant funds were used to complete the construction
                        of new dwelling units above an existing unit. This
                        violation was not reported by the Municipality during its
                        August 13, 2005, inspection.




   Table of Contents
                                                   10
                      Block Grant funds were used to complete the
                      construction of a new dwelling unit. This violation
                      was not reported by the Municipality during its July
                      8, 2005, inspection.

           This practice is in violation of HUD requirements in 24 CFR [Code of federal
           Regulation] 570.207.


Unsupported Housing
Rehabilitation Accomplishments

           According to the Municipality’s records, it disbursed more than $324,000 for
           housing rehabilitation efforts between July 2004 and December 2006. However,
           Municipality management did not maintain adequate internal controls to track and
           support the accomplishments of its housing rehabilitation activities. As a result, it
           lacks assurance that program objectives were met and that funds were used only
           for eligible purposes.

           The Municipality did not have in place an adequate tracking system to show the
           total assistance provided to each participant, the status of the repair work, the
           cases with due inspections, or participants with undelivered materials. The
           Municipality’s housing rehabilitation coordinator informed us that the
           Municipality would have to review each individual case file to extract or obtain
           the above mentioned data.

           The Municipality also did not prepare detailed work write-ups or specifications of
           the rehabilitation work needed. The files only contained a general statement from
           the Municipality’s inspector. The files did not clearly demonstrate the type of
           repair or the amount of assistance needed to bring the unit up to program
           standards. As a result, the files did not properly support the needed repairs, and
           the completed work assisted with Block Grant funds could not be determined. A
           similar deficiency was identified in the 2000 and 2003 HUD monitoring reports;
           however, the deficiency continues to exist.



   Table of Contents
                                               11
Conclusion


             Because the Municipality did not implement adequate internal controls, it
             improperly used Block Grant funds for new housing construction, and did not
             properly support program accomplishments. Therefore, expenditures of more
             than $36,000 are ineligible, and more than $324,000 are considered unsupported
             pending an eligibility determination by HUD. Management must implement
             policies and procedures to ensure that it complies with HUD requirements and
             that program objectives are met.


Recommendations


             We recommend that the Director of the San Juan Office of Community Planning
             and Development

             2A.    Require the Municipality to reimburse the Block Grant program from
                    nonfederal funds $36,040 approved for ineligible housing rehabilitation
                    activities/assistance.

             2B.    Require the Municipality to submit supporting documentation showing the
                    current status of the repair work and the eligibility and propriety of
                    $324,854 disbursed between July 1, 2004 and December 31, 2006 for
                    housing rehabilitation activities, or reimburse the Block Grant program
                    from nonfederal funds.

             2C.    Require the Municipality to establish and implement management controls
                    and procedures to ensure that its housing rehabilitation activities meet
                    program objectives, Block Grant funds are only used for eligible purposes,
                    and rehabilitation work is performed in accordance with standards and to
                    permit proper tracking of program accomplishments.




  Table of Contents

                                            12
Finding 3: The Municipality Did Not Comply with Procurement
           Requirements
The Municipality awarded six contracts totaling more than $1 million without following HUD
procurement requirements. This noncompliance occurred because the Municipality did not have
in place adequate internal controls and procedures and was not familiar with applicable Block
Grant requirement standards. As a result, it cannot ensure that quality goods and services were
obtained at the most advantageous terms. In addition, the Municipality did not support the
reasonableness of $109,581 in Block Grant disbursements, and paid more than $70,000 for
excessive expenditures. 3




    Procurement Standards Not
    Followed

                Program regulations provide that recipients shall comply with HUD procurement
                standards contained in 24 CFR [Code of Federal Regulations] 85.36. The
                standards include conducting procurements using full and open competition, fully
                documenting all procurement activities, and performing price or cost analyses.
                Office of Management and Budget Circular A-87 provides that rental costs are
                allowable to the extent that the rates are reasonable.

                We analyzed six contracts awarded between April 2005 and August 2006. There
                were procurement deficiencies in all six contracts reviewed. For example, the
                Municipality did not

                •        Perform public solicitation in one procurement,

                •        Award to the lowest bidder,

                •        Maintain adequate support showing that price or cost analyses were
                         performed and the basis used to determine the reasonableness of the
                         contracted amount,

                •        Provide potential contractors with complete and adequate specifications of
                         the scope of the services to be performed, and

                •        Ensure that contracts included all provisions required by 24 CFR [Code of
                         Federal Regulations] 85.36(i). For example, it did not include provisions
                         related to (1) the retention of all required records for three years after the
                         final payment and all other matters are closed; (2) administrative,
                         contractual, or legal remedies in instances where contractors violate or
                         breach contract terms, and provide for such sanctions and penalties as may

3
 Total disbursements of $813,321 were adjusted to consider $633,366 questioned in recommendation 1A and the
excessive $70,374 in recommendation 3B.

                                                     13
    Table of Contents
                    be appropriate; and (3) providing HUD, the comptroller general of the
                    United States, or any of their duly authorized representatives access to any
                    books, documents, papers, and records of the contractor, which are
                    directly pertinent to the specific contract for the purpose of making audit,
                    examination, excerpts, and transcriptions.

             The Municipality’s bid board secretary informed us that she was not familiar with
             HUD procurement standards. Thus, the Municipality did not ensure that
             procurement of Block Grant funded goods and services complied with HUD
             procurement requirements. It did not provide evidence that it created an
             environment that permitted full and open competition as required by HUD.
             Appendix D contains a list of the procurement deficiencies found during the
             review.

             The Municipality paid $109,851 to four contractors for engineering design,
             program administration, consulting services, and office space rent without
             evidence that it performed a cost/price analysis. Therefore, the reasonableness
             of the costs is not supported.


Excessive Expenditures


             The Municipality awarded a contract and paid $703,740 for street resurfacing
             work at various sites within the Municipality. Although the services were
             procured through formal bid, the Municipality did not award the procurement to
             the lowest bidder. It did not provide documentation explaining why the lowest
             bidder was not selected or the basis used to determine the reasonableness of the
             contracted amount. As a result, the Block Grant program was charged $70,374
             for excessive expenditures.


Conclusion


             The Municipality did not provide evidence that it created an environment that
             permitted full and open competition as required by HUD. It did not provide
             adequate support showing the reasonableness of $109,581 in Block Grant
             disbursements, and paid more than $70,000 for excessive expenditures. This
             noncompliance occurred because the Municipality did not have in place adequate
             internal controls and procedures and was not familiar with applicable Block Grant
             procurement requirements. As a result, the Municipality lacks assurance that
             services were obtained at the most advantageous terms and in a manner providing
             full and open competition or in accordance with HUD requirements.




 Table of Contents

                                             14
    Recommendations


                We recommend that the Director of the San Juan Office of Community Planning
                and Development:

                3A.      Require the Municipality to provide support showing the eligibility and
                         reasonableness of $109,581 spent on engineering services, administrative
                         rental costs, and consulting services or reimburse this amount to the Block
                         Grant program from nonfederal funds. 4

                3B.      Require the Municipality to reimburse the Block Grant program from
                         nonfederal funds $70,374 paid for excessive street resurfacing
                         expenditures.

                3C.      Require the Municipality to develop and implement procurement
                         procedures and controls that comply with HUD requirements to ensure
                         that goods and services are obtained at the most advantageous terms and in
                         a manner providing full and open competition




4
 Total disbursements of $813,321 were adjusted to consider $633,366 questioned in recommendation 1A and the
excessive $70,374 in recommendation 3B.

                                                     15
    Table of Contents
                               SCOPE AND METHODOLOGY

The audit objective was to determine whether the Municipality complied with HUD regulations,
procedures, and instructions related to the administration of the Block Grant program. To
accomplish our objective, we

      •    Obtained and reviewed relevant HUD regulations and Municipality guidelines;

      •    Interviewed HUD, Municipality, and contractor officials;

      •    Reviewed monitoring and independent accountant reports;

      •    Reviewed the Municipality’s files and records, including general ledgers;

      •    Performed site inspections of Block Grant activities; and

      •    Reviewed the Municipality’s controls related to the administration of its Block Grant
           program.

The Municipality’s check register reflected $2.2 million in Block Grant disbursements between
July 1, 2005, and December 31, 2006. We selected disbursements from the Municipality’s check
register with a value greater than $25,000, resulting in 15 disbursements totaling $1,388,704. 5
We selected 10 additional disbursements totaling $46,666 based on the vendor or purpose of the
payment. We reviewed the expenditures and related supporting documents to determine whether
the payments met Block Grant requirements, including allowability and allocability of the costs.

We obtained a list of housing rehabilitation grants the Municipality awarded between July 1,
2004, and May 21, 2007. During this period the Municipality awarded 145 housing
rehabilitation grants totaling $220,012. From this list, we selected and reviewed grants with
amounts greater than $2,000, resulting in 37 grants totaling $98,339. We reviewed each file to
verify the status of the rehabilitation work and the appropriateness of the assistance provided.
From these cases, we inspected 14 dwelling units with grants totaling $36,398. We inspected
three additional dwelling units with grants totaling $9,120 awarded between October 2002 and
March 2004. The units selected for inspection were those for which the assistance provided
appeared to be for ineligible housing rehabilitation activities.

We also obtained a list of the Municipality’s Block Grant procurement efforts performed
between July 1, 2005 and December 31, 2006. The Municipality conducted six significant
procurement actions totaling $1,016,027. We selected and reviewed four procurement activities
totaling $967,388. The procurement activities reviewed were two with a value greater than
$40,000 and two based on the vendor and purpose of the service. We reviewed two additional
procurement efforts totaling $68,600 that were conducted prior to our audit period. We reviewed
each file to determine whether the procurement process followed by the Municipality met HUD
standards.


5
    We excluded six disbursements totaling $518,445 associated with payroll expenditures.

                                                         16
    Table of Contents
To achieve our audit objectives, we relied in part on computer-processed data contained in the
Municipality’s database. Although we did not perform a detailed assessment of the reliability of
the data, we performed a minimal level of testing and found the data to be adequate for our
purposes. The results of the audit apply only to the items selected and cannot be projected to the
universe or population.

The audit generally covered the period July 1, 2005, through December 31, 2006, and we
extended the period as needed to accomplish our objectives. We conducted our fieldwork from
January through July 2007 at the Municipality’s offices in Canovanas, Puerto Rico.

We performed our review in accordance with generally accepted government auditing standards.




 Table of Contents
                                                17
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.

 Relevant Internal Controls


We determined the following internal controls were relevant to our audit objectives:

   •   Compliance with laws and regulations – Policies and procedures that management has
       implemented to reasonably ensure that resource use is consistent with laws and
       regulations.

   •   Safeguarding of resources – Policies and procedures that management has implemented
       to reasonably ensure that resources are safeguarded against waste, loss, and misuse.

We assessed the relevant controls identified above.

A significant weakness exists if management controls do not provide reasonable assurance that
the process for planning, organizing, directing, and controlling program operations will meet the
organization’s objectives.

 Significant Weaknesses


Based on our review, we believe the following items are significant weaknesses:

   •   The Municipality’s financial management system did not fully comply with applicable
       HUD requirements (see finding 1).

   •   The Municipality’s management controls over its housing rehabilitation activities were
       inadequate (see finding 2).

   •   The Municipality did not follow HUD procurement requirements when awarding six
       contracts totaling more than $1 million (see finding 3).

   Table of Contents                           18
                        FOLLOW-UP ON PRIOR AUDITS


 This was the first OIG audit of the Municipality of Canovanas’ Block Grant program.

 The Municipality’s independent public accountant audit report for the fiscal year ending June 30,
 2006, was issued on November 10, 2006. The report expressed an unqualified opinion on the
 Municipality’s financial statements but also reported nine findings concerning the Block Grant
 program. The material weaknesses applicable to the Block Grant program included (1)
 inadequate accounting system and financial management controls and procedures, (2) no control
 or procedures to use funds within the required time period, and (3) inadequate controls over
 equipment and real property management. As of September 25, 2007, all of the findings
 remained open, and the HUD field office had not received the Municipality’s response.

 We considered the reported findings in planning our audit and identified additional deficiencies
 as discussed in the Results of Audit section of this report.




Table of Contents
                                                19
                                   APPENDIXES

Appendix A

                  SCHEDULE OF QUESTIONED COSTS

     Recommendation                                                   Unreasonable or
         number             Ineligible 1/        Unsupported 2/       unnecessary 3/

           1A                                      $885,617
           1B                                       501,974
           1C                $23,556
           2A                 36,040
           2B                                        324,854
           3A                                        109,581
           3B                _______                _______                 $70,374

          Total              $59,596              $1,822,026                $70,374


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
     prudent, relevant, and/or necessary within established practices. Unreasonable costs
     exceed the costs that would be incurred by a prudent person in conducting a competitive
     business.




 Table of Contents

                                            20
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




   Table of Contents
                         21
Ref to OIG Evaluation   Auditee Comments




  Table of Contents

                         22
Ref to OIG Evaluation   Auditee Comments




   Table of Contents


                         23
Ref to OIG Evaluation    Auditee Comments




Comment 1




     Table of Contents
                          24
Ref to OIG Evaluation   Auditee Comments




Comment 2




 Table of Contents

                         25
Ref to OIG Evaluation                        Auditee Comments




                         Figure 1: Case # 2005-052 photo before the rehabilitation


                  Case Number 2004-003

                   In this case an existing unit existed and was occupied by a low income
                   family. The case file shows that the family requested funding for the
                   reconstruction of the second story due to the fact that the first story get
                   flooded by a small creek located near the unit.




                   Figure 2: Case Number 2004-003 photo before the rehabilitation




   Table of Contents
                                                26
Ref to OIG Evaluation                          Auditee Comments




                    Case Number 2004-012

                    In this case an existing unit existed that was unoccupied. The participant
                    requested funding to rehabilitate the unit. The unit was completed and is
                    occupied by a low income family.




                        Figure 3: Case Number 2004-012
                        Case Number 2000-607

                        In this case an existing unit existed and the participant requested funding
                        for the rehabilitation of the unit. The following photos show the unit
                        before and after the rehabilitation work:




   Table of Contents

                                                  27
Ref to OIG Evaluation                         Auditee Comments




                                    Figure 4: Case Number 2000-607- Before Rehab




                    Figure 5: Case Number 2000-607 – After Rehab

                    Case Number 2002-099

                    In this case a housing unit existed and was rehabilitated to be occupied by a low income
                    family. The following photos show the unit before and after the rehabilitation work:




  Table of Contents
                                                 28
Ref to OIG Evaluation                      Auditee Comments




                 Figure 6: Case Number 2002-099- Before Rehab




 Table of Contents

                                              29
Ref to OIG Evaluation                       Auditee Comments



                   Case Number 2000-587

                   In this case a housing unit existed and the family was living in the
                    basement. CDBG funds were provided for the roofing of the unit. The
                    following photos show the unit before and after the rehabilitation work:




                   Figure 8: Case Number 2000-587 Before rehab




                   Figure 9: Case Number 2000-587 after work performed




 Table of Contents

                                              30
Ref to OIG Evaluation   Auditee Comments




Comment 3




   Table of Contents

                         31
  Ref to OIG Evaluation   Auditee Comments




Table of Contents

                           32
Ref to OIG Evaluation   Auditee Comments




Comment 4




    Table of Contents

                         33
Ref to OIG Evaluation   Auditee Comments




  Table of Contents

                         34
Ref to OIG Evaluation   Auditee Comments




 Table of Contents

                         35
                           OIG Evaluation of Auditee Comments

The Municipality generally disagreed with our recommendations, except for recommendations
1A, 1B, and 3C. The Municipality did not address recommendations 1D, 1E, 1F, 2C and 3B.

Comment 1     The Municipality stated that the resurfacing work was done only to the entrance
              of the properties and that it was an eligible Block Grant activity (public facility
              improvement) since its efforts were targeted to low-moderate-income persons;
              thus, in compliance with the national objective requirement. However, the paving
              was not limited to the entrance as the Municipality claims in its response. Our
              inspection showed that the work took place inside the private property, beyond
              the entrance. The HUD field office informed us that the paving could be an
              eligible activity if it was done in conjunction with housing rehabilitation work of
              the dwelling unit but that the Municipality would have to demonstrate the income
              eligibility of the recipients. The Municipality did not provide additional support
              that could demonstrate that the expenses were eligible or that recipients were low-
              moderate income persons.

Comment 2     The Municipality stated the actions taken by the homeowners constitute
              reconstruction and not new housing construction. According to the supporting
              documentation the Municipality provided us during the audit and our interviews
              with program participants, Block Grant funds were improperly used to build or
              complete the construction of new dwelling units and not for reconstruction of
              existing housing units as the Municipality claims in its response. Our review
              found that Block Grant funds were used for the creation of a secondary housing
              unit attached to a primary unit and/or new detached units that is not allowable
              under the program. The Municipality did not provide additional support that
              could demonstrate that the expenses were eligible.

Comment 3     The Municipality stated that it maintained appropriate supporting documentation,
              and that it has taken action to resolve the finding. However, the additional
              support provided to us was not sufficient to address the deficiencies found during
              our audit. The information provided by the Municipality was too general and did
              not include names of participants, the description of the rehabilitation work
              needed and its status, cases with due inspections, or participants with undelivered
              materials. In addition, the Municipality did not address in its response the fact
              that it did not prepare detailed work write-ups or specifications of the
              rehabilitation work needed.

Comment 4     The Municipality stated that it complied with HUD procurement requirements.
              According to the supporting documentation the Municipality provided us during
              the audit, it awarded six contracts without following HUD procurement
              requirements. Thus, the Municipality did not provide evidence it created an
              environment that permitted full and open competition. The Municipality did not
              provide us with additional support that could demonstrate that services were
              obtained at the most advantageous terms and the costs were reasonable.

  Table of Contents
                                               36
Appendix C
                                         CRITERIA

Federal Regulations at 24 [Code of Federal Regulations] 85.20

Standards for financial management systems require recipients’ financial management systems to
provide for the following:

   •   Accurate, current, and complete disclosure of the financial results of financially assisted
       activities.

   •   Records which adequately identify the source and application of funds provided for
       financially assisted activities. These records must contain information pertaining to grant
       or subgrant awards and authorizations, obligations, unobligated balances, assets,
       liabilities, outlays or expenditures, and income.

   •   Effective control and accountability for all grant and subgrant cash, real and personal
       property, and other assets. Grantees and subgrantees must adequately safeguard all such
       property and must assure that it is used solely for authorized purposes.

   •   Following applicable Office of Management and Budget cost principles, agency program
       regulations, and the terms of grant and subgrant agreements in determining the
       reasonableness, allowability, and allocability of costs.

Federal Regulations at 24 [Code of Federal Regulations] 85.36(b)(9)

Grantees and subgrantees will maintain records sufficient to detail the significant history of
procurement. These records will include but are not necessarily limited to the following:
rationale for the method of procurement, selection of contract type, contractor selection or
rejection, and the basis for the contract price.

Federal Regulations at 24 [Code of Federal Regulations] 570.207(b)(3)

New housing construction is an activity that may not be assisted with Block Grant funds unless
authorized under provisions of §570.203 or when carried out by an entity under the provisions of
§570.204.




 Table of Contents



                                                37
Appendix D

              SCHEDULE OF PROCUREMENT DEFICIENCIES

                                                                      Missing or
                                                                      inadequate
                                                Missing      No cost specifications Lowest
                                                contract     or price  of services  proposal No public
      Contracted services           Amount     provisions    analysis   solicited  not selected solicitation
Street resurfacing
                                      $716,388        X            X          X              X
August - November 2006
Basketball court improvements
                                       195,000        X
March - August 2006
Engineering services
                                        40,000        X            X          X
April 2005 - April 2006
Engineering services
                                        36,000        X            X          X                          X
February - March 2006
Office space lease
                                        23,231        X            X          X
June 2005 - June 2006
Consulting services
                                        20,000        X            X
February- June 2006
              Total                $1,030,619         6            5          4              1            1
* The schedule does not indicate all violations noted during the review. We only included the most frequent and
  serious violations.




   Table of Contents

                                                        38
